INCIDENT OF SECURITY CONCERN AT THE Y-12 NATIONAL
SECURITY COMPLEX




               U.S. Department of Energy
               Office of Inspector General
               Office of Inspections and Special Inquiries




 Inspection Report

 Incident of Security Concern at the
 Y-12 National Security Complex




 DOE/IG-0785                               January 2008
                        Department of Energy
                             Washington, DC 20585


                               J a n u a r y 2 , 2008



MEMORANDUM FOR THE SECRETARY

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Incident of
                         Security Concern at the Y-12 National Security Complex"

BACKGROUND

The Y-12 National Security Complex (Y-12) in Oak Ridge, Tennessee, is a
component of the Department of Energy's National Nuclear Security Administration.
Y-12 is an integral part of the nuclear weapons complex and performs critical roles in
strengthening national security. The success of Y-12's mission is dependent, in part,
on the proper accreditation, use and control of classified and unclassified information
systems.

In support of its mission, Y-12 maintains Limited Areas that employ physical controls
to prevent unauthorized access to classified matter or special nuclear material. The
Department has restrictions regarding what items may be taken into Limited Areas and
the capabilities of those items. The Office of Inspector General received an allegation
that unauthori~edportable electronic devices (including laptop computers) were
introduced into a Limited Area at Y-12 and that this breach in security was not
properly reported. The objective of our inspection was to determine the facts and
circumstances surrounding this matter.

RESULTS OF INSPECTION

Our inspection substantiated the allegation and identified additional concerns related
to the incident. Specifically, we found that:

           On October 24, 2006, Y- 12 personnel discovered that a contractor
           employee from the Department's Oak Ridge National Laboratory (ORNL)
           had brought an unclassified laptop computer into a Y-12 Limited Area
           without following proper protocols;

           Imn~ediatelythereafter, Y-I2 cyber security staff did not properly secure
           the Iaptop computer, allowing the user to depart the Limited Area with the
           laptop computer. This was contrary to Department policy and prevented
           collection of the laptop computer as best evidence;




                            @    Printed w ~ l h\oy ink o n rccycled paper
           Inconsistent with a 32-hour reporting requirement under the Department's
           Incidents of Security Concern Program, a written report of the incident was
           not made to the Headquarters Operations Center until six days after it was
           discovered; and,

           During Y-12 inquiries following the October 24, 2006, incident, it was
           determined that as many as 37 additional Iaptop computers may have been
           improperly introduced into the Limited Area by ORNL personnel in recent
           years. However, this was not reported to the Headquarters Operations
           Center immediately upon discovery. We noted that Y-12 included
           reference to these additional laptop computers in an updated investigative
           report submitted to Headquarters in May 2007.

During our review, we observed that information sharing between Y-12 and local
counterintelligence officials could be improved. Specifically, four months after the
incident, a key local counterintelligence officer was unaware of additional
investigative files relating to the incident. We believe that the prompt and full
communication of relevant information is critical, so that measures may be taken to
address potential threats resulting from laptop computers having been taken on foreign
travel.

We noted that, upon learning of the October 24'h incident, the Manager of the Y-12 Site
Office required that the involved individuals be removed from the Y-12 site and that their
unclassified computer accounts be suspended. ORNL provided the laptop computers to
Y-12 officials for a full security review and a forensic analysis. In addition, during the
course of our inspection activities, officials from both sites notified us that they had
initiated corrective plans and revisions to local security procedures. ORlVL provided a
detailed list of the corrective actions it either had initiated or was planning.

We made several recomnlendations designed to further enhance the security of
information systems and responses to incidents of security concern.

MANAGEMEIVT REACTION

In responding to a draft of this report, management agreed with our recommendations
and identified corrective actions taken, initiated or planned. Management comments
were incorporated in the report, as appropriate, and are included in Appendix C.
We consider the comments to be responsive to our recommendations. Due to the
significance of the underlying security concerns, we are considering evaluating the
adequacy of these corrective measures in the future.

Attachment

cc: Deputy Secretary
    Administrator, National Nuclear Security Administration
    Under Secretary for Science
    Chief of Staff
Director, Policy and Internal Controls Management (NA-66)
Director, Office of Internal Review (CF-1.2)
Manager, Y- 12 Site Office
Manager, Oak Ridge Office
Audit Liaison, Y- 12 Site Office
Audit Liaison, Oak Ridge Office
INCIDENT OF SECURITY CONCERN AT THE Y-12 NATIONAL
SECURITY COMPLEX

TABLE OF
CONTENTS

               OVERVIEW

               Introduction and Objective                     1

               Observations and Conclusions                   1


               DETAILS OF FINDINGS

               Unauthorized Laptop Computer in Limited Area   3

               Incident Response                              3

               Incident Reporting                             3

               Additional Unauthorized Laptop Computers       4

               Communication                                  6


               RECOMMENDATIONS                                7


               MANAGEMENT COMMENTS                            7


               INSPECTOR COMMENTS                             8


               APPENDICES

               A. Scope and Methodology                       9

               B. Prior Reports                               10

               C. Management Comments                         11
Overview


INTRODUCTION       The Y-12 National Security Complex (Y-12) in Oak Ridge,
AND OBJECTIVE      Tennessee, supports the Department of Energy’s (Department)
                   nuclear weapons program. Y-12 performs critical roles in
                   strengthening national security and reducing the global threat from
                   weapons of mass destruction. The success of Y-12’s mission is
                   dependent, in part, on the proper accreditation and use of classified
                   and unclassified information systems.

                   The Office of Inspector General (OIG) received an allegation that
                   unauthorized portable electronic devices (including laptop computers)
                   were introduced into a Limited Area at Y-12 and that this breach in
                   security was not properly reported. Limited Areas are secure work
                   areas that employ physical controls to prevent unauthorized access to
                   classified matter or special nuclear material. The Department has
                   restrictions regarding what items may be taken into Limited Areas and
                   the capabilities of those items. For example, modern laptop computers
                   commonly have wireless transmission (WiFi) capability and infrared
                   ports that can be used for high-speed data exchanges. Such
                   capabilities are restricted or prohibited in secure environments without
                   proper approvals, in order to protect against the disclosure of
                   sensitive/classified information by the user or monitoring or intrusion
                   by external threats. If an event occurs that threatens a security interest,
                   it must be promptly and accurately reported to cognizant officials so
                   that appropriate follow-up actions may be taken.

                   The Office of Inspector General initiated an inspection to
                   determine the facts and circumstances surrounding the allegation.

OBSERVATIONS AND   Our inspection substantiated the allegation and identified
CONCLUSIONS        additional concerns related to the incident. Specifically, we found
                   that:

                      •   On October 24, 2006, Y-12 personnel discovered that a
                          contractor employee from the Department’s Oak Ridge
                          National Laboratory (ORNL) had brought an unclassified
                          laptop computer into a Y-12 Limited Area without
                          following proper protocols;

                      •   Immediately thereafter, Y-12 cyber security staff did not
                          properly secure the laptop computer, thereby allowing the
                          user to depart the Limited Area with the laptop computer.
                          This was contrary to Department policy and prevented
                          collection of the laptop computer as best evidence;



    Page 1                                       Incident of Security Concern at the
                                                 Y-12 National Security Complex
            •   Inconsistent with a 32-hour reporting requirement under the
                Department’s Incidents of Security Concern Program, a
                written report of the incident was not made to the
                Headquarters Operations Center until six days after it was
                discovered; and,

            •   During Y-12 inquiries following the October 24th incident,
                it was determined that as many as 37 additional laptop
                computers may have been improperly introduced into the
                Limited Area by ORNL personnel in recent years.
                However, this was not reported to the Headquarters
                Operations Center immediately upon discovery. We noted
                that Y-12 included reference to these additional laptop
                computers in an updated investigative report submitted to
                Headquarters in May 2007.

         In addition, during our review, we observed that information sharing
         between Y-12 and local counterintelligence officials could be
         improved. Specifically, four months after the incident, a key local
         counterintelligence officer was unaware of additional investigative
         files relating to the incident. We believe that the prompt and full
         communication of relevant information is critical for responsible
         officials to develop an accurate and complete understanding of the
         facts and to determine the most effective path forward.

         We noted that, upon learning of the October 24th incident, the Manager
         of the Y-12 Site Office required that the involved individuals be
         removed from the Y-12 site and their unclassified computer accounts
         suspended. ORNL provided all involved laptop computers to Y-12
         officials for a full security review and a forensic analysis. In addition,
         during the course of our inspection activities, officials from both sites
         notified us that they had initiated corrective plans and revisions to
         local security procedures. ORNL provided a detailed list of the
         corrective actions it either had initiated or was planning. Due to the
         significance of the underlying security concerns, we are considering
         evaluating the adequacy of these corrective measures in the future.

         The Office of Inspector General has completed several reviews related
         to information security and concerns regarding the ability of
         Department sites to protect both classified and unclassified
         information. Appendix B contains a list of related reviews, which in
         many instances found that security weaknesses were the result of
         failures to follow established Department or local policies and
         procedures.




Page 2                                     Observations and Conclusions
Details of Findings


UNAUTHORIZED          We found that on October 24, 2006, Y-12 personnel discovered
LAPTOP COMPUTER       that a contractor employee from the Department’s ORNL had
IN LIMITED AREA       brought an unclassified laptop computer into a Y-12 Limited Area
                      without following proper protocols. On this date, cyber security
                      staff had discovered this laptop computer with an unauthorized
                      wireless capability in the Limited Area, identified the office and the
                      computer’s user, and reported the matter to a security official.

                      Department Manual 470.4-2, “Physical Protection,” states that laptop
                      computers capable of recording information and transmitting data
                      wirelessly are considered controlled items and are not permitted in
                      Limited Areas without special authorization. Special authorization is
                      not given unless certain controls over the computers are exercised.
                      These controls may include disabling the computers’ internal
                      microphone and wireless capabilities. In addition, local requirements
                      at the Y-12 site stipulate that a laptop computer user seeking special
                      authorization must electronically execute a Memorandum of
                      Understanding to document full understanding of these rules and to
                      accept responsibility that the requirements have been met. However,
                      such a memorandum was not completed prior to the above laptop
                      computer being brought into the Limited Area.

INCIDENT              We found that immediately thereafter, Y-12 cyber security staff
RESPONSE              did not properly secure the laptop computer, thereby allowing the
                      user to depart the Limited Area with the laptop computer. This was
                      contrary to Department policy and prevented collection of the laptop
                      computer as best evidence.

                      Department Manual 470.4-1, “Safeguards and Security Program
                      Planning and Management,” requires any person discovering a
                      potential incident of security concern to make reasonable efforts to
                      safeguard the security interests and to ensure evidence associated with
                      the incident is not tampered with or destroyed. However, cyber
                      security staff told us that once they discovered the unauthorized laptop
                      computer inside the Limited Area, they had no local policies or
                      procedures directing them how to properly safeguard the evidence
                      associated with the incident. Therefore, the identified laptop computer
                      user was permitted to leave the site with the laptop computer. It was
                      up to an hour before the computer was retrieved.

INCIDENT              We determined that inconsistent with a 32-hour reporting requirement
REPORTING             under the Department’s Incidents of Security Concern Program, a
                      written report of the incident was not made to the Headquarters




Page 3                                                               Details of Findings
                   Operations Center until six days after it was discovered. The
                   Department’s Incidents of Security Concern Program required that a
                   written report of the incident be submitted to the Headquarters
                   Operations Center within 32 hours. Department Manual 470.4-1 states
                   that officials have 24 hours to examine and document all pertinent
                   facts and circumstances to determine if a security incident has
                   occurred. If it is determined that a security incident has occurred, the
                   severity and type must be categorized by an Impact Measurement
                   Index numeric ranking within that same 24-hour period. Within eight
                   hours following incident categorization, Department Form 471.1,
                   “Security Incident Notification Report,” must be submitted to the
                   Headquarters Operations Center, which further processes and
                   disseminates information regarding the incident.

                   We determined that a Department Form 471.1 reporting the
                   October 24th incident was not sent to the Headquarters Operations
                   Center until the morning of October 31, 2006. Department and
                   contractor officials told us that they knowingly delayed submitting
                   the required incident of security concern report because of
                   uncertainty over whether ORNL or Y-12 would accept
                   responsibility for formally reporting the incident and due to
                   continually developing information. Y-12 ultimately accepted
                   responsibility for reporting the incident.

                   Although a Department Form 471.1 was not submitted timely to
                   the Headquarters Operations Center, we noted there were incident-
                   related emails and phone calls to officials at the National Nuclear
                   Security Administration (NNSA) Service Center in Albuquerque,
                   New Mexico, and at Headquarters starting on October 25, 2006.
                   However, none of these communications resulted in the required
                   notification to the Headquarters Operations Center.

ADDITIONAL         We found that during Y-12 inquiries following the October 24th
UNAUTHORIZED       incident, it was determined that as many as 37 additional laptop
LAPTOP COMPUTERS   computers may have been improperly introduced into the Limited
                   Area by ORNL personnel in recent years. However, this was not
                   reported to the Headquarters Operations Center immediately upon
                   discovery. We noted that Y-12 included reference to these
                   additional laptop computers in an updated investigative report
                   submitted to Headquarters in May 2007. In response to a draft of
                   this report, management contended that it was appropriate to delay
                   reporting this information until submission of its final investigative
                   report provided to Headquarters in May 2007. However, we
                   confirmed with a Headquarters security official that the additional
                   laptop computers should have been reported upon discovery in




Page 4                                                             Details of Findings
                  order to update and disseminate pertinent information about the
                  security incident.

                  As noted earlier, according to Department policy, laptop computers
                  capable of recording information and transmitting data wirelessly
                  are not permitted in Limited Areas without special authorization.
                  In addition, we observed that the entrance to the Limited Area had
                  a sign (see below) that specifically prohibited entry of electronic
                  equipment capable of recording, processing, and transmitting
                  information without prior approval.




                                Sign posted outside the Limited Area

                  We determined that ORNL personnel allowed 38 laptop computers
                  to be brought into the Limited Area without the required special
                  authorizations and associated controls being implemented and
                  without Memorandums of Understanding being executed. When
                  interviewed, a computer security officer claimed a lack of
                  knowledge regarding the established Y-12 policies and procedures
                  on such laptop computers in the Limited Area.

Laptop Computer   As stated in local ORNL guidance, portable electronic devices
Analysis          such as laptop computers are especially enticing targets for theft,
                  unauthorized access, or espionage when traveling out of the
                  country. Therefore, Y-12 officials conducted a review of the travel
                  history of the laptop computers and found that 9 of the 38 laptop
                  computers had been taken on foreign travel; 6 of those 9 had
                  wireless capability; and 2 of those 6 had been to sensitive
                  countries.


Page 5                                                           Details of Findings
                In addition, Y-12 submitted the 38 laptop computers to the
                Department’s Cyber-Forensic Laboratory (CFL) for analysis. An
                examination of each laptop computer was conducted to determine
                if the computers contained classified information; if wireless
                connectivity had been made; and if any of the computers contained
                “malware” (a general term coined for a variety of malicious
                software). Their analysis concluded that the laptop computers did
                not contain classified information; that 26 of the 38 laptop
                computers had wireless communications capability; and that a
                majority of the computers contained malware. The CFL explained
                that while malware can have legitimate applications and is
                commonly found on most computers, some types have the
                potential to cause harmful, destructive or intrusive actions and can
                be used to capture a user’s keystrokes to provide a means of
                obtaining unauthorized information. Senior ORNL and Y-12
                officials, as well as an appropriate Federal agency, were informed
                of these issues. Department security offices conducted additional
                investigations, but did not identify a cyber security compromise.
                Consequently, the laptop computers were returned to their
                custodians and the Department categorized the incident as a
                physical security matter.

                As a result of the violations of Department and local computer
                security procedures, the Manager of the Y-12 Site Office required
                that the involved individuals be removed from the Y-12 site and
                their unclassified computer accounts suspended. Following the
                completion of Y-12 mandated training, Y-12 reviewed ORNL
                reinstatement requests and reinstated facility access only for those
                ORNL employees deemed appropriate.

COMMUNICATION   During our review, we observed that information sharing between
                Y-12 site and local counterintelligence officials could be improved.
                Through analysis of investigative materials, interviews, and internal
                communications, we discovered that four months after the incident,
                a key local counterintelligence officer was unaware of additional
                investigative files relating to the incident. Those files included
                information regarding potential conflicting statements made by the
                laptop computer user during the early stages of the October 24th
                incident investigation, the fact that that the laptop computer and its
                user had left the area after the incident, and the specific
                identification of that laptop computer. We believe that the prompt
                and full communication of relevant information is critical for
                responsible officials to develop an accurate and complete
                understanding of the facts and to determine the most effective path
                forward.



Page 6                                                         Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Oak Ridge Office:

                  1. Hold accountable those individuals who violated Department
                     and site policies and procedures.

                  2. Conduct refresher training of all employees to ensure they
                     understand the applicable requirements and their individual
                     responsibilities with respect to the issues raised in this report.

                  We also recommend that the Manager, Y-12 Site Office:

                  3. Evaluate local policies and procedures to ensure they fully
                     address the issues raised by our review.

                  4. Conduct refresher training of all employees to ensure they
                     understand the applicable requirements and their individual
                     responsibilities with respect to the issues raised in this report.

                  5. Conduct periodic reviews to ensure compliance with
                     Department and local procedures on the use of laptop
                     computers in Limited Areas.

                  6. Ensure that security incidents are reported in a timely and
                     accurate manner in accordance with Department requirements.

                  7. Review information sharing procedures between site and local
                     counterintelligence officials to ensure information is fully
                     shared in a timely manner.

MANAGEMENT        In comments on a draft of this report, the Department’s Oak Ridge
COMMENTS          Office concurred with the recommendations and provided the OIG
                  with a list of corrective actions that had been taken.
                  Management’s corrective actions included the reassignment of
                  some security duties and refresher training for all cleared
                  personnel. We have included management’s comments in
                  Appendix C.

                  NNSA management stated that the recommendations were
                  appropriate and provided an explanation of the actions taken to
                  address our recommendations. These actions included updating
                  policies and procedures related to laptop computers and conducting
                  random inspections to test cyber security compliance. We have
                  included management’s verbatim comments in Appendix C.




Page 7                                                         Recommendations
                                                           Management Comments
INSPECTOR   We consider management’s comments to be responsive to our
COMMENTS    recommendations. This report was reviewed for classification and
            handling.




Page 8                                                Inspector Comments
Appendix A


SCOPE AND     The majority of our fieldwork was conducted from February
METHODOLOGY   through June 2007. It included interviews with Department and
              contractor officials and visits to the Y-12 Limited Area. Our
              document review and analysis included:

              • Timeline of events associated with the incident;

              • Security Incident Notification Report;

              • Internal investigative reviews;

              • Evidence/Property custody documents;

              • Cyber-Forensic Laboratory reports;

              • Department and local policies and procedures pertaining to the
                Incidents of Security Concern Program;

              • Department and local cyber security policies and procedures;
                and

              • Prior OIG reports.

              Also, pursuant to the Government Performance and Results Act of
              1993, we determined that Y-12 had established performance
              measures related to cyber security at the site.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 9                                               Scope and Methodology
Appendix B


PRIOR REPORTS   The following are prior related OIG reports:

                • “Internal Controls Over Computer Property at the Department’s
                  Counterintelligence Directorate” (DOE/IG-0762, March 2007);

                • Special Inquiry on “Selected Controls over Classified Information
                  at the Los Alamos National Laboratory” (OAS-SR-07-01,
                  November 2006);

                • “Department of Energy’s Fiscal Year 2006 Consolidated
                  Balance Sheet” (OAS-FS-07-02, November 2006);

                • “Management Controls over the Federal Energy Regulatory
                  Commission’s Unclassified Cyber Security Program – 2006”
                  (OAS-M-06-10, September 2006); and,

                • “The Department’s Unclassified Cyber Security Program –
                  2006” (DOE/IG-0738, September 2006).




Page 10                                                           Prior Reports
Appendix C




Page 11      Management Comments
Appendix C (continued)




Page 12                  Management Comments
Appendix C (continued)




Page 13                  Management Comments
Appendix C (continued)




Page 14                  Management Comments
                                                                    IG Report No. DOE/IG-0785

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                    http://www.ig.energy.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
